audit report
Return
to the USDOJ/OIG Home Page
United States Marshals Service
Federal Prisoner Detention
Budget Execution and Formulation
Report No. 98-29
March 1998
Office of the Inspector General
EXECUTIVE SUMMARY
The United States Marshals Service (USMS) enforces federal laws and provides support to the federal judicial system in executing arrest warrants, maintaining custody of prisoners, providing court security, protecting witnesses, and managing seized assets.  For federal prisoners in its custody, the USMS provides secure confinement, care, transportation, and delivery to judicial proceedings.  In FY 1996 the USMS utilized about $357 million of Federal Prisoner Detention funds to provide for the care and custody of a daily average of about 23,000 prisoners.
We found that the USMS does not always adequately monitor and control costs associated with federal prisoners.  Major problems included:
paying jails $1.6 million for housing prisoners no longer in jail;
setting aside $3.4 million more than needed for prisoners housed at St. Elizabeths Hospital in Washington, DC;
improperly paying about $237,000 for guard services, prisoner meals, and prisoner housing obtained in violation of procurement rules;
improperly paying jails about $180,000 for medical services; and
improperly recording $4.8 million in expenses.
We also found that the USMS has difficulty in budgeting for prisoner detention needs.  This occurs, in part, because the USMS neither maintains aggregate arrest statistics needed to forecast needs nor communicates sufficiently with other federal law enforcement agencies that affect the USMS prisoner population.
The details of our work are contained in the Findings and Recommendations section of the report.  Our scope and methodology are contained in Appendix I.